<html>
<title> - THE ETHIOPIS-ERITREA WAR: U.S. POLICY OPTIONS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
             THE ETHIOPIS-ERITREA WAR: U.S. POLICY OPTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON AFRICA

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

                               __________

                              MAY 25, 1999

                               __________

                           Serial No. 106-60

                               __________

    Printed for the use of the Committee on International Relations


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 60-136 CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                         Subcommittee on Africa

                 EDWARD R. ROYCE, California, Chairman
AMO HOUGHTON, New York               DONALD M. PAYNE, New Jersey
TOM CAMPBELL, California             ALCEE L. HASTINGS, Florida
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
THOMAS G. TANCREDO, Colorado         BARBARA LEE, California
GEORGE RADANOVICH, California
                Tom Sheehy, Subcommittee Staff Director
               Malik M. Chaka, Professional Staff Member
        Charisse Glassman, Democratic Professional Staff Member
                 Charmaine V. Houseman, Staff Associate


                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Ms. Susan Rice, Assistant Secretary for African Affairs, United 
  States Department of State.....................................     6
Edmond J. Keller, Director, James S. Coleman Center for African 
  Studies, UCLA..................................................    17
Melvin P. Foote, Executive Director, Constituency for Africa.....    18
Adotei Akwei, Advocacy Director for Africa, Amnesty International    20

                                APPENDIX

Prepared Statements
Hon. Edward Royce, A U.S. Representative from the State of 
  California.....................................................    30
Hon. Benjamin A. Gilman, A U.S. Representative from the State of 
  New York.......................................................    32
Ms. Susan Rice...................................................    34
Mr. Edmond J. Keller.............................................    43
Mr. Melvin P. Foote..............................................    47
Mr. Adotei Akwei.................................................    52
Additional material received
Organization of African Unity (OAU) peace framework for Ethiopia 
  and Eritrea....................................................    33
Response by Barbara Larkin, Assistant Secretary of State for 
  Legislative Affairs to Congressman Campbell....................    63



             THE ETHIOPIA-ERITREA WAR: U.S. POLICY OPTIONS

                              ----------                              


                         TUESDAY, MAY 25, 1999

                  House of Representatives,
                            Subcommittee on Africa,
                      Committee on International Relations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(Chairman of the Subcommittee) presiding.
    Chairman Royce. This hearing of the Subcommittee on Africa 
will come to order. The subject is the Ethiopian Eritrean war 
and U.S. policy options.
    Again, there is a crisis in the Horn of Africa. Ethiopia 
and Eritrea have mobilized one half million troops against one 
another in a war that has already cost tens of thousands of 
lives and threatens the stability of the region. The human 
suffering goes beyond those dying in the trenches. Civilians 
have also suffered greatly.
    Ethiopia has expelled 53,000 ethnic Eritreans, often under 
inhumane conditions ostensibly for security reasons. Tens of 
thousands of Ethiopians have fled Eritrea. Also, over 300,000 
Ethiopians who are mostly farmers in the Badme area, and more 
than 120,000 Eritreans have been displaced as a result of the 
fighting. Meanwhile, hundreds of millions of dollars are being 
spent by both countries on armaments.
    To compound this tragedy, these are two of the poorest 
countries in the world. Hopes for economic progress that were 
fostered over the last several years have been snuffed out. It 
is certainly hard to be supportive of debt relief and other aid 
for these two countries under present circumstances as each are 
involved in an arms buildup.
    The outbreak of hostilities last May caught many offguard. 
Most observers, including the State Department, assumed that 
relations between these two countries were sound. However, 
there were all too evident factors, clear with the benefit of 
hindsight, that sparked and now fuel the war.
    There were real economic tensions between Ethiopia and 
Eritrea. Border disputes were allowed to linger, and there is 
no escaping the fact that internal political dynamics are at 
play.
    Both governments have shown indifference toward the 
development of democracy, individual liberties, and impartial 
justice. These shortcomings undoubtedly have led each country 
into this spiral of violence.
    Time is running out on the Ethiopian and Eritrean people's 
hopes for a better future. A recent Associated Press (AP) 
account quoted an Eritrean soldier saying, ``I feel bad because 
we were neighbors and in the future we will have to work 
together to develop.''
    As nationalistic passions are flamed through propaganda and 
as battlefield losses mount, this soldier's vision of 
development is slipping through his hands like sand. Another AP 
story quoted an Eritrean woman who, having had her house 
destroyed by bombing, said, ``I never expected this war to last 
so long. Maybe my own children will grow up to fight also.''
    With every day that passes, the cycle of animosity deepens 
and the prospects for peace and development grow dimmer. The 
United States should play an active role in attempts to resolve 
this conflict. For one, the winner in this conflict is the 
Sudanese Government and its further involvement would subtract 
from any real investment the U.S. has made in these countries 
over the last several years.
    With battlefield losses at a hundred thousand now, there is 
no excuse for us not to be fully engaged, and the Subcommittee 
is looking forward to hearing about the Administration's 
efforts. Ultimately, though, assuming there is a desire for a 
responsible and fundamental resolution, a resolution and an end 
to this conflict will require leadership on the part of Eritrea 
and Ethiopia, leadership to temper nationalistic passions and 
it will require compromise. Only then will the Eritrean and 
Ethiopian leaders have lived up to their high reputations.
    [The prepared statement of Hon. Ed Royce referred to 
appears in the appendix.]
    I will now turn to the Ranking Member, Mr. Payne, for an 
opening statement.
    Mr. Payne. Thank you very much. Thank you, Mr. Chairman, 
for calling this very important hearing today the prospects for 
peace. And let me also thank the Assistant Secretary, the 
Honorable Susan Rice, for the work that she has been doing as 
it relates to this tragedy early on, spending many days there 
at the inception of the conflict attempting to solve it at that 
time, and the continued work that she has been doing as relates 
to this issue.
    Of course, it is certainly clear that we are all extremely 
disappointed with this very tragic issue. We are very 
disappointed because many of us here know President Isaias and 
Prime Minister Meles. Many of us here have visited both 
countries on numerous occasions, Mr. Campbell, Mr. Royce.
    We are very troubled because these two leaders were persons 
that we pointed to. As we said, new winds were blowing across 
Africa with democracy coming with a new set of leaders in 
Africa. We went through the colonial period with Jomo Kenyatta 
and leaders like Mr. Mandela, the persons that moved Africa 
into independence, Herman Cohen, but we said we have new 
leaders now.
    We have young men, who are educated, and interested with a 
lot of integrity. And so when this conflict broke out, it 
actually was a very troubling and disappointing effort to many 
of us who were so pleased at their potential. And so as many 
innocent people--the bombing is killing innocent people on both 
sides, have engaged in bombing. I think that one agreement that 
was made initially said there would be no air strikes, but 
there have been.
    I am also concerned about the situation in the Horn and the 
long-standing impact on Sudan and Somalia. We know that there 
are people in Somalia that are friendly with both sides. The 
worst thing that we can see happening now is that this conflict 
would then start to involve Adeed, Egal, and other members of 
IGAD. So that makes it similar to the problem in the Congo 
where we see many countries involved in a conflict between two 
countries which makes it more difficult to keep and bring this 
tragedy to an end.
    The fact that we must respect one's sovereignty and the 
maintenance of territorial integrity is very important. 
However, border disputes have been around for many years. 
Especially with Ethiopia and Eritrea it was felt that border 
disputes would be something that eventually would be dealt 
with, but they were not the primary issues.
    It was always acknowledged that the border was still 
questionable. For a conflict to begin based upon an issue that 
everyone has agreed to was something that we could sit down at 
the table. It is extremely troubling. We have had special 
envoy, Tony Lake, attempting to work in the region, as well as 
many others. But I will submit my entire opening statement for 
the record, but I would just like to say that we are hoping, 
still hoping, that there can be some way that we can bring 
these two leaders, these two great potentials together so that 
we can have a cease-fire. Then we can move on to deal with the 
problems at hand.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Payne.
    Chairman Royce. We will turn now to the chairman of the 
Full Committee, Mr. Gilman of New York.
    Mr. Gilman. Thank you, Chairman Royce. I want to thank you 
for arranging this hearing.
    It comes at an appropriate time for us to consider what is 
happening in Eritrea and Ethiopia. This war between Ethiopia 
and Eritrea is the largest war in the world today. Most of us 
forget that.
    With half a million men and women under arms and more than 
40,000 have lost their lives makes the crisis in Kosovo pale in 
comparison. Of all the conflicts in Africa and around the 
world, this war between Ethiopia and Eritrea is one of the most 
tragic. It is tragic not just because of the huge numbers 
involved, although any conflict in which a single battle 
consumes 10,000 precious irreplaceable lives is certainly a 
tragedy. It is tragic also because of the aspect of two of 
Africa's shining lights, two brothers struggling each other at 
the very time they should be building their wealth, their 
liberty, and prosperity.
    For 30-years people of Eritrea fought a bitter struggle for 
independence, and for 13-years people of Ethiopia fought to 
overthrow a brutal totalitarian regime. Eventually through 
tenacity, courage, and will they succeeded. It is outstanding 
now that leaders who already sacrificed so much and who know 
what true suffering is cannot find some way to resolve their 
differences without massive bloodshed.
    It is honorable to fight and die for one's country. Of 
course, it is. Is it to be encouraged and gloried in? Most of 
us think not. I don't pretend to understand all the 
complexities of this conflict. But I do know that Thomas 
Keneally, author of Schindler's List and other works of 
literature, discovered in the rocky hills of Eritrea of 
northern Ethiopia, some of the finest people in the world. To 
think that they are murdering each other by the tens of 
thousands is a human tragedy beyond measure.
    I don't believe this vast apparatus of our government can 
focus on only one international conflict at a time. We would 
like to know why the President, after a stirring and long 
overdue trip to Africa last year, has been unable to direct 
greater high level efforts to try to pursue a lasting peace in 
that part of the world.
    So I commend our colleagues and Chairman Royce and Mr. 
Payne, Chairman and Ranking Members of our Subcommittee, for 
directing their attention to this struggle and perhaps we can 
find a way to do more. I believe we should.
    Thank you.
    Chairman Royce. Thank you, Chairman Gilman.
    We will turn to Mr. Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    We are here today to discuss viable solutions to a peaceful 
end to the Ethiopian Eritrean war. Mr. Chairman, this conflict 
is of great interest to me because of the human rights 
violations that are taking place by both sides and the impact 
that this conflict is and will continue to have on neighboring 
countries throughout the continent of Africa.
    While I support a peaceful resolution to this conflict, 
more should be done to alleviate the impact of these types of 
conflicts early on in the process. Africa seems to be put on a 
back burner and we have to hold the Administration and the 
Members of Congress accountable to end the patterns of double 
standards and neglect when it comes to foreign policy in 
Africa. Over the past few weeks we have seen just how effective 
NATO and intervention can be with respect to the humanitarian 
relief effort provided to the refugees in Kosovo.
    While compliance by both countries with the proposed peace 
agreement--that is a starting point, I respectfully submit that 
we can pursue the same kind of relief to the people of Ethiopia 
and Eritrea. We need to call upon President Clinton and his 
special envoy to step up the peace negotiations in the 
Ethiopian and Eritrean war.
    Additionally, we should call on the United Nations Human 
Rights Commission to step in and provide the requested relief 
and observation of human rights violations. I think that if we 
use a concerted effort to make a difference, we can make a 
difference in this conflict and in other conflicts that are 
going on through the continent of Africa.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Meeks. Now we will go to Mr. 
Campbell of New York--of California.
    Mr. Gilman. He looks like a New Yorker, Mr. Chairman.
    Mr. Campbell. We Californians have northern California and 
southern California. I never had this degree of distance put 
between us.
    Thanks, Mr. Chairman. Really particularly personal thanks 
to you for holding this hearing. I am so glad that you have. I 
believe this attention is beneficial. My comments are personal 
so they are equally heartfelt as they are personal.
    A year and a half ago, my wife and I and Don Payne spent 
Thanksgiving in Asmara. We went up to Kerin, Massawa in 
Eritrea. Then in Ethiopia, to Addis, Mekele, Yabelo, Aksum.
    Gosh, what optimism we had, didn't we, Don. It was such a 
great feeling that folks were making such progress, such pride 
and such an accomplishment. I even had favorable words for the 
attitude that maybe they didn't need so much assistance from 
NGO's. They would do it on their own. That was an attitude I 
thought showed some self-reliance.
    I know the witnesses today are not going to be from those 
two countries. They are going to be Americans. That is as it 
should be, but there are representatives of those countries in 
the audience. Let me just speak to you from my heart.
    You, both countries, have utterly destroyed my efforts to 
focus attention of the American people on the good that could 
be done through partnership here. You have. And now we are 
focused on other parts of the world, aren't we? And I don't 
know what it is going to take to get the attention back, and it 
was in our hand. It was in our grasp. So I am so sorry, and I 
am here because I hope that it can be remedied, but I want you 
to know how touched I am, my wife and I are personally that our 
dream has been shattered by both countries.
    And last, Mr. Chairman, there is no excuse for hate, radio-
hate broadcasts. The building up of the animosities through the 
hate propaganda will take decades to remedy. Neighbors have to 
live with neighbors.
    So thank you for holding this hearing. I look forward to 
learning from it, but I do want my colleagues and friends from 
the two countries involved to know that this is as close to 
personal as anything I have ever dealt with in Congress.
    Thanks.
    Chairman Royce. Thank you, Mr. Campbell.
    Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. Thank you again for 
holding this hearing and for your leadership.
    I think all of us on the Committee appreciate your efforts 
to encourage a peaceful solution to this unfortunate and tragic 
situation between two friends of the United States, Eritrea and 
Ethiopia. Both of these nations have assisted us in our efforts 
to oppose terrorism and radical fundamentalism in the region. 
Both have every potential to be shining examples of political 
and economic reform on the continent of Africa.
    This conflict should indeed matter to us, matter to the 
United States. And it should be addressed, I believe, at the 
highest levels of our government. I think it is fair to say at 
this point that the international efforts and efforts by our 
own government to encourage a peaceful settlement have clearly 
been insufficient.
    I believe, however, that personal involvement by President 
Clinton in this matter just might help to bring an end to the 
hostilities. I hope that when we conclude this hearing today, 
we are able to send a message to the President urging him to do 
a number of things.
    First, publicly insist on an immediate and unconditional 
cease-fire. Second, make it clear that any party to the 
agreement that violates the cease-fire would incur serious 
consequences such as the suspension of all U.S. assistance. 
Third, invite President Isaias and Prime Minister Meles to meet 
with him in Washington. Fourth, strongly encourage both 
countries to begin immediate negotiations on the implementation 
of the OAU framework. And finally, have the Administration set 
up a mechanism to followup on all of these efforts.
    Again, Mr. Chairman, I want to thank you personally for 
your hard work on this issue and I yield back the balance of my 
time.
    Chairman Royce. Thank you, Mr. Chabot.
    Before our Subcommittee to testify today we have Assistant 
Secretary of State for African Affairs Susan Rice. Dr. Rice 
earned her Ph.D. from Oxford University, served as the White 
House Special Assistant to the President and Senior Director 
for African Affairs among other positions, and we are delighted 
that she is with us today.
    Mr. Gilman. Dr. Rice.

 STATEMENT OF ASSISTANT SECRETARY OF STATE FOR AFRICAN AFFAIRS 
                         DR. SUSAN RICE

    Dr. Rice. Thank you very much, Mr. Chairman, for inviting 
me to testify today on the conflict in the Horn of Africa. I 
would like to thank Mr. Payne for his very kind words about my 
personal efforts and those of my colleagues in trying to 
resolve this conflict.
    The war in the Horn of Africa threatens a broad swath of 
Africa as well as United States' interests in the region as a 
whole. The Ethiopia-Eritrea conflict which began in May 1998 
has substantially damaged the economic growth and development 
of Ethiopia and Eritrea and has led to humanitarian suffering 
on both sides of the border. Tens of thousands of lives have 
been lost and thousands more have been maimed.
    The United States and others in the international community 
have consistently called for an immediate cessation of 
hostilities and speedy implementation of the OAU's framework 
agreement. We continue to work with the United Nations and the 
Organization of African Unity to secure a lasting peace.
    The origins of the war are complex. In the year leading to 
the outbreak of fighting, relations between the two former 
allies deteriorated, exacerbated by economic tensions. A border 
skirmish occurred on May 6, 1998, at Badme. A week later, 
Eritrea sent troops and armor into and beyond Badme into 
territory administered by Ethiopia. After several weeks of 
fighting, several areas previously administered by Ethiopia 
fell under Eritrean control.
    As the ground fighting escalated in June 1998, Ethiopia 
launched air strikes against Asmara airport. Eritrea made 
retaliatory strikes against the Ethiopian towns of Mekele and 
Adigrat, south of Zela Ambessa and in the process hit a school. 
Both sides then agreed to a U.S.-brokered air strike moratorium 
and fighting decreased to occasional exchanges of artillery and 
small arms fire over a 9-month period.
    Both Ethiopia and Eritrea used the intervening months to 
acquire new military stockpiles including state-of-the art 
fighter aircraft and artillery and to recruit, train, and 
deploy tens of thousands of new soldiers. The United States 
actively discouraged supplies to both parties and the U.N. 
Security Council urged governments not to provide weapons to 
exacerbate the problem.
    Publicly, Ethiopia continued to demand a complete and 
absolute return to the status quo ante of May 6, 1998. Eritrea 
insisted that some of the area it occupied after May 6, 1998, 
was Eritrean territory. Fighting resumed on February 6, 1999, 
when Ethiopian forces attacked, eventually displacing Eritrean 
forces from the disputed area of Badme. Ethiopia later launched 
an unsuccessful counteroffensive on the Zela Ambessa front in 
mid-March. Eritrea failed to retake Badme in subsequent 
fighting at the end of March.
    In April, Ethiopia struck an Eritrean military training 
facility and other targets deep within Eritrea. A week and a 
half ago Ethiopian aircraft bombed sites at Zela Ambessa, Badme 
and the port of Massawa. Although there has been a lull on the 
ground fighting over the past few weeks, press reports 
yesterday indicate that there were clashes between ground 
forces this past weekend at Badme.
    Mr. Chairman, the United States has significant interest in 
ending the war between Ethiopia and Eritrea as soon as 
possible. The current conflict threatens region stability and 
to reverse Ethiopian and Eritrean progress in political and 
economic development. The United States has important national 
security interests in the Horn of Africa. Ethiopia and 
Eritrea's neighbor, Sudan, has long supported international 
terrorism, fostered the spread of Islamic extremism beyond its 
borders, actively worked to destabilize neighboring states, 
including Ethiopia and Eritrea, and perpetrated massive human 
rights violations against its own citizens.
    Since the conflict began last year, Sudan has increasingly 
benefited from the hostilities between its former adversaries. 
Eritrea recently signed an accord with Sudan to normalize 
relations. Ethiopia has renewed air service to Khartoum and 
made overtures to Sudan for improved relations as well. And 
both sides have moved to reduce support to Sudanese opposition 
groups.
    Eritrea's President Isaias has made several trips to Libya 
for frequent consultations with Colonel Qadhafi and has joined 
Qadhafi's community of Saharan and Sahelian states.
    We are also very concerned by credible reports that Eritrea 
has delivered large quantities of weapons and munitions to 
self-proclaimed Somalia President Hussein Aideed for the use of 
a violent faction of the Oromo Liberation Front. The terrorist 
organization Al-Ittihad may also be an indirect recipient of 
these arms.
    Ethiopia is also shipping arms to factions in Somalia. The 
recent upsurge in violence in Somalia is, in part, related to 
these new developments.
    The security costs of the conflict are matched if not 
exceeded by the grave humanitarian consequences of the war. 
Tens of thousands of lives have been lost, hundreds of 
thousands displaced. Approximately 300,000 Ethiopians and 
100,000 to 200,000 Eritrean civilians have been forced from 
their homes and fields near the border by the conflict. An 
estimated 60,000 Eritreans and Ethiopians of Eritrean descent 
have been deported from Ethiopia to Eritrea and an estimated 
20,000 Ethiopians have left Eritrea under duress.
    We have made clear that we consider the practice of 
deportation to be a fundamental violation of individual rights. 
Moreover, the nature of these expulsions and the arrangements 
made for transfer and holding of property were clearly 
susceptible to abuse.
    Immediately upon the outbreak of hostilities in May, 1998, 
I led two interagency missions to Ethiopia and Eritrea to 
facilitate a peaceful resolution of the dispute. Working with 
the government of Rwanda, we proposed a series of steps to end 
the conflict in accordance with both sides' shared principles 
and international law.
    These recommendations, endorsed by the OAU and the U.N. 
Security Council, later informed development by the OAU of its 
framework agreement. These initial missions also resulted in 
agreement by the two parties to the air strike moratorium which 
remained in effect until February 6, 1998.
    Beginning in October, President Clinton sent former 
National Security Advisor, Anthony Lake, and an interagency 
team from the State Department, the National Security Council 
and the Defense Department on four missions to Ethiopia and 
Eritrea, the most recent occurring early this year. We are 
grateful for Mr. Lake's tireless work on behalf of the 
President and his Secretary of State.
    His intensive efforts which still continue have been aimed 
at helping both sides find a mutually agreed basis for 
resolving the dispute without further loss of life. Working 
closely with the OAU and the U.N. Security Council, Mr. Lake 
and our team put forth numerous proposals to both sides 
consistent with the OAU framework.
    In December, Ethiopia formally accepted the framework 
agreement. Eritrea did not at that time, requesting further 
clarification on numerous specific questions.
    Fighting resumed on February 6, while U.N. Envoy Ambassador 
Mohammed Sahnoun was in the region still seeking a peaceful 
resolution to the conflict. Following this first phase of 
fighting, Eritrean troops were compelled to withdraw from 
Badme, an important element of the OAU framework agreement. 
Subsequent Eritrean acceptance of the framework agreement was 
welcomed by the United States and the Security Council but 
greeted with skepticism by Ethiopia. Ethiopia instead demanded 
Eritrea's unconditional unilateral withdrawal from all 
contested areas that Ethiopia had administered prior to last 
May.
    On April 14 of this year, Prime Minister Meles of Ethiopia 
offered a cease-fire in return for an explicit commitment by 
Eritrea to remove its forces unilaterally from contested areas. 
He later added that Eritrean withdrawal must occur within an 
undefined but short period of time.
    Eritrea continues to demand a cease-fire prior to 
committing to withdrawal from disputed territories. Ethiopia 
insists that a cease-fire and implementation of the OAU 
framework agreement can only follow an explicit Eritrean 
commitment to withdraw from all territories occupied since the 
conflict erupted on May 6. A joint OAU/United Nations effort to 
urge both sides to accept a cease-fire and begin implementing 
the framework agreement continues. The U.S. Government remains 
actively engaged in support of the OAU with both Ethiopia and 
Eritrea to secure a peace settlement.
    Here, Mr. Chairman, I would like to say in response to some 
of the opening statements that have been made, in particular 
Mr. Gilman's, that the United States has been active from the 
outset, from the very day this conflict began. President 
Clinton has personally and repeatedly talked to both these 
leaders and has sent letters to them.
    Secretary Albright and National Security Advisor Sandy 
Berger also have spoken with these two leaders repeatedly. The 
decision to involve former National Security Advisor, Anthony 
Lake, one of our nation's most distinguished experts in foreign 
policy, was a consequence of this Administration's high 
commitment to seeing this conflict resolved peacefully.
    The President has made clear to both leaders that the 
United States is prepared to do its utmost in offering our good 
offices to resolve this conflict. And I will say that the 
reason this conflict is not resolved has nothing to do with the 
United States or the extent of our efforts. We have done and 
will continue to do all that we can, but this conflict will not 
be resolved unless and until there is the will on both sides 
for that to happen.
    Let me finally say that there is a need not only to end 
this conflict as quickly as possible but also ultimately to 
repair over the long term strained relations in the Horn. A 
resolution of the border war may be attainable. The task of 
rebuilding both countries and mending ties between Ethiopia and 
Eritrea to ensure long-term sustained peace and mutual security 
will be especially difficult. It will require due attention and 
support from the United States in the international community.
    Mr. Chairman, other Members of the Subcommittee, I 
personally look forward to continuing to work with you and 
other Members as we continue to pursue our shared interest in 
forging a peaceful resolution to this tragic conflict.
    Thank you very much.
    Chairman Royce. Thank you, Secretary Rice.
    The Prepared statement of Dr. Susan E. Rice appears in the 
appendix.]
    Chairman Royce. One of the questions I would like to begin 
by asking has to do with the fact that we see this military 
buildup and at the same time the U.S. Treasury Department is 
planning to forgive 90 million of Ethiopias debt in 1999. It is 
my understanding that the notification sent to this Committee 
indicated that this would happen on April 27.
    On the symbolic level, is this the right message to be 
sending? More generally, how are our bilateral and multilateral 
aid efforts towards these two countries being shaped by this 
conflict? Do we want to look at the question of forgiving $90 
million at a time when several hundred million is being used to 
purchase armaments on the world market?
    Dr. Rice. Mr. Chairman, the United States Administration, 
in consultation with Congress, took the decision many months 
back that we would not provide direct financial assistance to 
either government in the wake of the outbreak of hostilities.
    We have continued assistance through NGO's and project-
based assistance, but we have suspended non-project assistance 
for the time being.
    On the question of debt relief, we had, prior to the 
outbreak of the conflict, planned to provide debt relief to a 
number of countries that met the Administration's criteria. 
This is bilateral concessional debt. There have been staff 
consultations on this issue over the course of the last week. 
And the Administration has committed to consult further with 
Congress before moving forward on the debt relief that you 
described.
    Chairman Royce. If we don't see an end to this conflict 
soon, I would very much appreciate those consultations. At the 
same time, Congressman Campbell and myself have been very 
interested in the issue of hate broadcasts.
    Hate radio is a tool that was utilized in back Rwanda with 
Mille Collines on Congolese radio. The question that I have is 
we see a pitched propaganda battle between both governments. Do 
we see broadcasting that is approximating hate radio? Is there 
an element of ethnic hatred in either side's broadcasting? This 
is an issue that we are interested in monitoring, given the 
experiences in Congo and given the experience in Rwanda.
    Dr. Rice. Mr. Chairman, I am not an expert in either of the 
two predominant languages in Ethiopia or Eritrea so I can't say 
with confidence that there have not been any broadcasts that 
you might consider hate in nature. But I think in general, 
while certainly the rhetoric on both sides has been 
considerable, I am not aware of broadcasts of the sort that we 
would call hate radio in the traditional sense. Certainly I am 
not aware of anything that would approach what tragically 
occurred in Rwanda in 1994.
    Chairman Royce. I would urge that we monitor the 
broadcasts, and I would also urge that if we find that this 
methodology is being used, that this information be made 
available to the Members of the Committee.
    The last question I will ask you is will this war, when it 
ends, affect U.S. democracy promotion efforts toward Ethiopia 
and toward Eritrea?
    Dr. Rice. Mr. Chairman, I think there are several 
imponderables about the nature of our relationship with these 
two countries in the wake of what we hope will be a swift 
conclusion of the conflict.
    The sooner the conflict ends, the greater our ability to 
play a constructive role in helping these two countries rebuild 
and reconcile. It is in our interest to have stable growing 
Democratic partners in the Horn of Africa, and for that reason 
it is my expectation that we will do all we can to promote that 
outcome.
    Chairman Royce. I thank you, Secretary Rice. We will now 
turn to Mr. Payne, the Ranking Member, for questioning.
    Mr. Payne. Thank you very much.
    As Representative Campbell said so eloquently, we have been 
very, very disappointed at the momentum that was being 
developed for Africa in general. One of the great 
accomplishments, to address a black caucus and I and others in 
the State Department, felt was a great achievement was to have 
President Clinton take a historic 12-day six-country trip to 
Africa to highlight the positive things that are going on in 
Africa. To get an opportunity to have the U.S. press visit, to 
see many of the positive programs, games and achievements that 
have been going on. And as I indicated that--as you know, 
Ethiopia and--Eritrea, with the ending of the Mengistu regime 
and the coming together of Eritrea finally as an independent 
country, that country was really on its way.
    It has been extremely disappointing to the point where--one 
of the things that is very confusing to me is that early on I 
thought that we could do some diplomatic work in the office and 
would meet often with the Ambassadors and the embassy 
Representatives from both Ethiopia and Eritrea attempting to 
try to get to the bottom of this. But the problem that I found 
was that the two Representatives of the governments here in the 
U.S. seemed to interpret everything differently from the point 
of Badme itself, who went in, who didn't go in, who was there 
first, who was there second.
    When you talk to each embassy, it would be just the 
opposite. And so after 4 or 5-months, we have simply found that 
it serves no useful purpose, I suppose, to meet with either 
side because we get very little accomplished.
    There was a peace plan drawn up by the OAU that was 
presented after they did the study. They had an impartial 
group. Could you tell me what the OAU agreement said? It 
appears that there may have been misinterpretations by each 
country about what the OAU suggested happened, or at one point 
I think Ethiopia initially said it would accept it later after 
Badme was retaken. I think Eritrea said they would accept it, 
but Ethiopia, I believe, at that time said that it was off the 
table.
    So is there some fundamental difference to the way each 
country, to your knowledge, view this OAU doctrine which I 
thought would be the way to go since it was an African document 
drawn up by African leaders impartial to each country?
    Dr. Rice. Mr. Payne, the OAU framework agreement is a 
rather extensive document, and I am happy to share a copy with 
the Committee for the record if that would be useful.
    [The information referred to appears in the appendix.]
    Dr. Rice. It recommends, in the first instance, the two 
parties commit themselves to immediate cessation of hostilities 
upon acceptance by both sides of the agreement. It then calls 
for an end to use a short-hand statement or other forms of 
expression that might exacerbate the conflict.
    It then says, in order to create conditions for 
delimitation and demarcation of the border, the armed forces 
presently in Badme Town and its environs should be re-deployed 
to the positions they held before May 6, as a mark of goodwill 
and consideration for our continental organization.
    It says that the re-deployment would be supervised by 
observers deployed by the OAU. It notes that any re-deployment 
in this regard would not, should not, and would not be 
construed as in any way prejudicing the question of the 
sovereignty of this territory. And then it goes on to envision 
re-deployment from other contested areas along the common 
border within the framework of demilitarization of the border 
and then on to delimitation, demarcation.
    Now, both countries have now formally stated their 
acceptance of the OAU framework agreement as I described in my 
testimony. Ethiopia's acceptance first and then followed some 
time later by Eritrea's. Both countries continue to maintain 
that they accept this agreement. There does seem to be some 
difference of interpretation over the question of Badme Town 
and its environs.
    Nevertheless, we in the U.S. Government think that the 
principals of the OAU framework remain sound and remain valid 
and can form a basis for a peaceful settlement of this 
conflict.
    Mr. Payne. Thank you.
    I see my time has expired. But that is one of the puzzling 
positions for me. The first part of the OAU document evidently 
is that there be a cease-fire, that be the framework or the 
basis. Then to both say, we accept it and bombing continues and 
fighting continues. If you accept it, it seems to me the first 
premise and then all of the details would follow the cease-fire 
would occur.
    We accept it, we accept it; then cease and desist the 
hostilities and move toward the thing. So it is the confusing 
semantics that I have found as I have tried to engage myself 
with this issue. If they both agree, it would seem like there 
would be no fighting going on and that is a part of, I think, 
the frustration I know we, on this side, and I am sure you have 
experienced in your work.
    Thank you very much.
    Chairman Royce. Thank you.
    Chairman Royce. Mr. Campbell.
    Mr. Campbell. Thanks.
    Secretary Rice, I have applause for your efforts. I hope 
you know that, and I want to say that publicly. I think you are 
trying your very best. And I think you are a woman, an 
individual, of exceptional skills so your very best is better 
than virtually anybody else's. I mean that sincerely. I do not, 
therefore, criticize you.
    I do have this question, though. I am thinking Rambouillet. 
You get all the leaders together in a French chateaux outside 
of Yugoslavia. I am thinking Dayton, probably Rambouillet is 
more pleasant than Dayton. I hope I don't lose any votes in 
Ohio if I ever run there. But you see my point. The Camp David, 
bring over the head of Egypt, the head of Israel.
    Why has that not been proposed? Again, I am sure you are 
doing your best, but why not invite Prime Minister Meles, 
President Isaias over to the United States or to a neutral 
location and try to broker it with the two of them in the same 
place?
    Dr. Rice. Thank you, Mr. Campbell, especially for your kind 
words of my own efforts and those of my colleagues to try to 
bring this to a peaceful resolution. I appreciate them.
    I will not want to get into great detail on this in a 
public forum. I am happy to brief you and any other Members in 
further depth in a closed session if you wish. But I hope you 
will take me at my word when I say, as I said in my testimony, 
that President Clinton personally, Secretary Albright, and 
National Security Advisor Sandy Berger have made it very clear 
to both sides that we are committed to doing our utmost in the 
use of our good offices to bring this to a peaceful resolution.
    We have not been reluctant to make those good offices 
available. But both sides need to be ready and willing to take 
constructive advantage of those good offices, and we will 
continue our efforts but our efforts will bear fruit when and 
only when the two sides have come to the conclusion that they 
are ready for a peaceful resolution.
    Mr. Campbell. I appreciate your answer.
    I repeat, I think you are doing your best but take a look 
at Rambouillet. Milosevic didn't come. Nevertheless we held a 
Rambouillet. We had an empty space for him. So occasionally it 
appears as though it is in our diplomatic interest to bring 
parties together or to invite them together whether they always 
show up or not. Again, I am not asking you to go beyond--I 
realize that you are an employee in a large organization.
    I have a specific question which I would have given you 
advanced warning on had I known myself, but I did not. I hope 
this isn't unfair. I just learned of an American named Bruhana 
Mikiyel, a U.S. citizen of Ethiopian birth, Eritrean ethnicity, 
but apparently an Ethiopian citizen who was detained in 
Ethiopia for 2-months, November and December, subjected to 
imprisonment, and I am informed tortured as well, all the while 
not being the subject of any inquiry by our embassy and Addis.
    If you know anything about this, I would like to hear it. 
If you do not, I would welcome a letter from you as a follow-
up, with apologies again for not giving you advanced word but I 
just heard about it as I was coming into the meeting.
    Dr. Rice. I think it would be most constructive for us to 
send you a letter as a follow-up. There are two cases, at 
least, that Members of this Subcommittee have brought to the 
attention of the State Department. The details on both, quite 
honestly, are not completely clearcut, and I wouldn't want to 
step into the details of those and be mistaken.
    So let me simply say that we stand ready in the State 
Department and through our embassies to be as responsive as we 
possibly can. We have welcomed you and Congressman Royce and 
others bringing to our attention some of the facts behind these 
cases. In one instance, as the Chairman is aware, our lawyers 
in the State Department are looking into it and we will 
continue to do our best.
    Correspondence and staff consultations on these cases are 
continuing between the State Department and the African 
Subcommittee. Regarding one of these cases, Mr. Petros 
Berhana's father has promised the State Department additional 
information about his case. As of August 18, 1999 the State 
Department has not received the data. Mr. Petros Berhana's 
father is not a U.S. citizen.
    Mr. Campbell. Could you kindly send me a letter at your 
convenience on that. The gentleman's name is Bruhana Nikiyel.
    And last, the expulsions concern me greatly and I will ask 
the next panel about it as well. Tell me kindly which--this may 
not be constructive. You certainly have freedom to tell me 
that, but, if you can, is there a justification--strike that. 
Which side is engaging in expulsions of ethnics of the other 
side to a degree that you would say constitutes a human right 
violation, if any?
    Dr. Rice. We have expressed our concern publicly and 
privately over the human rights implications of the conflict. 
They include both the deportations and expulsions, as I 
mentioned in my testimony, as well as the impact of the 
conflict on displaced people on both sides of the border.
    On August 5, the State Department released a detailed 
statement expressing our great concern about the expulsion of 
ethnic Eritreans from Ethiopia. That statement went into some 
considerable detail about the nature of our concerns. As I said 
in my testimony, we estimate some 60,000 Eritreans and 
Ethiopians of Eritrean descent have been deported from Ethiopia 
and some 20,000 Ethiopians have left Eritrea under duress.
    We are obviously concerned about both sets of developments, 
but I think your private panel expert from Amnesty 
International will be able to shed greater light on this since 
Amnesty International having just published a study on the 
issue.
    Chairman Royce. Thank you. We appreciate the attention to 
Petros Bruhana, Bruhana Mikiyel, and others who have been 
caught in this conflict.
    We will turn now to Mr. Meeks of New York. If we could ask 
one question each, and then we will have time to reconvene.
    Go ahead, Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Dr. Rice, just continuing with the theme of trying to have 
diplomatic efforts to have peace between both sides, I 
understand that not too long ago the President of Eritrea was 
to meet with the President of Egypt in Cairo with the President 
of Ethiopia to join them a few days later.
    I was wondering if you know anything of that meeting and 
what, if anything, took place as a result of the meeting?
    Did the meeting in fact take place?
    Dr. Rice. Mr. Meeks, my understanding is that President 
Isaias has had contact regularly with the President of Egypt; 
Prime Minister Meles was not long ago in Egypt.
    It is my understanding they were not there at the same 
time. I am not aware of an effort to bring them together in 
Egypt. Egypt has stated publicly that it shares the 
international community's interest in bringing about a peaceful 
resolution of the dispute on the basis of the OAU framework 
agreement, but I am not aware of any further effort by Egypt to 
mediate or to push this further on the basis of the mutual 
agreement of both parties.
    Mr. Meeks. Thank you.
    Chairman Royce. Barbara Lee of California, and then we will 
come back.
    Ms. Lee. Thank you, Mr. Chairman.
    Let me say to Dr. Rice, I thank you for taking the lead to 
try to bring peace and stability not only in this war-stricken 
region but all over the continent of Africa. You have been a 
true leader, and I truly appreciate everything that you have 
done, as all of us have said.
    Dr. Rice. Thank you very much.
    Ms. Lee. I am new to this Committee this term, and I would 
like to get a bit of clarity in terms of what the State 
Department believes this war is really about. I know some of 
the root causes have to do with the fight over currency. From 
the U.S. perspective, what is the basic reason for this war?
    Dr. Rice. Congresswoman, I wish I had a simple and pat 
answer to that, and while I think we could share with you some 
elements of our analysis and I think that would be best done in 
private, I think at the end of the day only the two governments 
of the countries can answer that question definitively.
    As the Chairman said in his opening statement and as many 
others have echoed, these were two countries with which the 
United States had strong relationships, shared strategic 
interests, and which were among the more promising success 
stories in Africa. No two countries, bilateral relationship 
however close they may be, are without complications. 
Nevertheless, the relationship between Ethiopia and Eritrea had 
seemed, at least for many years, to be one that would not be 
prone to the sort of conflict that we have unfortunately since 
seen.
    I think it will be sometime after the end of the conflict, 
once the dust settles, when both sides are able to look back 
and review the developments themselves and ask themselves to 
their own satisfaction that very same question. I hope, that 
out of it will come the means for the countries to reconstruct 
the essence of a once good bilateral relationship.
    Obviously, that will take a great deal of time. Our 
interest will be in trying to help bring peace to the Horn and, 
as I said earlier, to promote growth in security and democracy, 
an important area for the United States.
    Chairman Royce. Thank you, Ms. Lee.
    We are going to return to one last question from Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    My other question was just a concern about the IGAD peace 
process with the fact that Uganda, Eritrea, and Ethiopia are 
all embattled in their own regional conflicts.
    What is the status of the peace process?
    Dr. Rice. Well, IGAD is engaged in two peace processes, one 
is Sudan and the other is Somalia.
    The Sudan one has obviously been the more active of the 
two. The IGAD peace process with respect to Sudan has been slow 
and complex. We in the U.S. Government and other donors have 
recently sought to energize the IGAD peace process by putting 
forth a number of suggestions for how to improve the process by 
which that peace process works, for example setting up a 
permanent secretary to deal with the Sudan issue, setting up 
technical Committees that can work full-time on the difficult 
substantive issues that divide the two sides and proposing the 
establishment or appointment of a full-time envoy from the 
government of Kenya on behalf of IGAD to work this issue.
    Those proposals have been well received by IGAD, by the 
government in Kenya which is chairing the IGAD process. I don't 
think that the actual IGAD mediation process has been 
particularly dramatically affected by the conflict between 
Ethiopia and Eritrea. As I said in my statement, obviously 
circumstances in Sudan have been. But I think the peace process 
can continue to move forward provided that the IGAD institution 
is able and willing to push it and that the two sides are 
willing to deal constructively.
    Let me just reiterate an important point which I hope 
Members of the Committee will take on board. There are many 
conflicts in Africa at present and around the world. And I 
spend, as do all of my colleagues in the Africa bureau and the 
National Security Council, Defense Department, USAID, and 
others who work on Africa, a great deal of our time and energy 
working on these conflicts. We have the attention and support 
of the highest levels of the U.S. Government, including the 
Secretary of State, the National Security Advisor, and 
President Clinton.
    I want this Committee to be assured that even as the United 
States focuses on crises and conflicts in other parts of the 
world in my judgment, we do not do so, to the detriment of our 
efforts to promote a peaceful resolution to any of the 
conflicts in Africa. Those resources and that support has been 
there, and our principals have been very active collectively 
and individually on these issues as we need them.
    Chairman Royce. We thank you, Secretary Rice.
    I will mention one other thing. Congresswoman Barbra Lee 
had the opportunity, along with Mr. Meeks, Don Payne, our 
Ranking Member, and myself to lead a delegation to be election 
observers in the Nigerian election along with General Powell.
    As you know, this is a important country in Africa. The 
transition is critical. It is in 4-days, and I would hope that 
we have a high level delegation that will be involved in this 
historic transition process in Nigeria.
    I want to thank you again for your testimony here today.
    Dr. Rice. Thank you very much. Thank you all.
    Chairman Royce. We will stand in recess through the quorum 
call and through the two votes and return in approximately 20-
minutes when our second panel will testify.
    Thank you.
    [Recess.]
    Chairman Royce. We will now reconvene with our second 
panel. Dr. Edmond Keller is a professor in the Political 
Science Department at the University of California, Los 
Angeles. Professor Keller is the author of Revolutionary 
Ethiopia: From Empire to People's Republic. He has written 
extensively on Ethiopia and Eritrea. Dr. Keller earned his M.A. 
and Ph.D. degrees at the University of Wisconsin, Madison. He 
is the past President of the African Studies Association.
    Melvin Foote is the Executive Director of Constituency for 
Africa, an emerging council of organizations, groups, and 
individuals with an interest in Africa. He has worked on 
development and relief issues in Africa for more than 25-years. 
Mr. Foote has extensive experience in the Horn region, having 
worked in Eritrea, Somalia, and Ethiopia. He is presently 
involved in a peace initiative on the Eritrea-Ethiopia conflict 
being developed by former Peace Corps Volunteers. Mr. Foote 
earned a B.A. in sociology from Western State University in 
Colorado. He holds an M.A. degree in public Administration from 
the University of Colorado.
    Mr. Adotei Akwei, a native of Ghana, is the Director of 
Advocacy for Africa with Amnesty International. Mr. Adotei 
previously worked on African issues for the Lawyers Committee 
for Human Rights, the American Committee on Africa, and the 
Africa Fund. Mr. Adotei earned a B.A. in political science from 
the State University of New York. He holds an M.A. degree in 
government from the College of William and Mary. We will begin 
with Dr. Edmond J. Keller. Mr. Keller, please.

          STATEMENT OF DR. EDMOND J. KELLER , DIRECTOR

    Dr. Keller. Thank you very much, Mr. Chairman, Congressman. 
I understand that I have 5-minute so I am going to keep my 
comments brief. You have my statement. I am going to 
concentrate on the first part of the statement in which I 
discuss the policy recommendations.
    In the first place, the United States has to recognize that 
this is a complicated situation and the United States carries 
some baggage that would make it difficult in the long run for 
this country to appear to be an impartial, honest broker in the 
conflict. Each side claims that the U.S. favors the other. 
However, the conflict has such potential to spread in terms of 
its scope and intensity that the U.S. must attempt to play a 
proactive role, especially in the international diplomatic 
arena.
    Now, bearing this in mind, let me offer the following 
policy actions:
    The U.S. should continue to press for an unconditional 
cease-fire, a withdrawal of troops from both sides in the 
contested area--this would include all of the various fronts 
that have opened up since the initial front at Badame--the 
creation of a demilitarized zone that would be occupied in a 
robust manner by an OAU/U.N. peacekeeping force. This should be 
followed as rapidly as possibly by the demarcation of the 
disputed territory by an international team of cartographers.
    Second, rather than taking a role in mediating and 
facilitating the negotiation between the warring parties, the 
U.S. should vigorously support the efforts of the OAU and the 
United Nations in this regard. It is commonly agreed that 
regional and subregional organizations in Africa are going to 
have to become more proficient in conflict prevention, 
peacekeeping, peacemaking, and peace-building. And countries 
like the United States, rather than being necessarily directly 
involved on the Continent should provide the material and 
technical expertise that would ultimately be needed to make 
African leadership in this regard happen in an effective 
manner.
    Third, the U.S. should be praised for speaking out about 
the massive amounts of arms being exported into the contested 
area. But much more needs to be done. There needs to be a 
policy introduced that is very similar to the one that imposes 
sanctions on countries that are not making serious efforts to 
stem the flow of drugs from and through their countries. U.S. 
foreign assistance represents leverage that could be used 
against countries like China, Russia, Ukraine, and others who 
themselves are involved in arms trade in this war or who allow 
their nationals to be involved in that trade. I can't emphasize 
strongly enough how important such a policy could be. I shudder 
to think what the impact would be for Africa when weapons of 
mass destruction that have been recently introduced into the 
Eritrea-Ethiopia conflict begin to find their way into other 
zones of conflict such as central and southern Africa. I don't 
think that the United States should allow this to happen.
    Eritrea and Ethiopia are two of the poorest countries in 
the world. At the same time, they are countries with enormous 
potential. As is made clear by the large numbers of Eritreans 
and Ethiopians who are well educated and highly trained 
citizens that reside in this country, the human capital that 
would be needed to rapidly build the economies of the two 
countries are well within reach. What stands in the way, of 
course, is war. A return to peace would set the stage for 
economic takeoff.
    The U.S. should do its best to promote the reestablishment 
of trust between the leaders of the two countries. There is 
little doubt that this would be difficult, but an effort has to 
be made. Thank you very much.
    Chairman Royce. Thank you, Dr. Keller. We also thank you 
for taking the long trek from Los Angeles out here.
    Dr. Keller. It is nice to be with you.
    Chairman Royce. Thank you, and we will put your full report 
into the record.
    [The prepared statement of Dr. Edmond J. Keller appears in 
the appendix.]
    Chairman Royce. Mr. Foote.

STATEMENT OF MELVIN P. FOOTE , EXECUTIVE DIRECTOR, CONSTITUENCY 
                           FOR AFRICA

    Mr. Foote. Thank you, Mr. Chairman. It is a great pleasure 
to be here and I want to commend you for the outstanding work 
you are doing in leading the Africa Subcommittee. I also want 
to identify with much that I have heard today from Dr. Rice and 
others and Dr. Keller.
    Tens of thousands of young combatants on both sides of this 
conflict have already been sacrificed in the border war. 
Sluggish economies have now become even more stagnant and hard-
won political capital has been severely compromised. I fully 
associate myself with the many friends of Ethiopia and Eritrea 
in the U.S. who cannot understand why these great people have 
decided to settle their differences through force of arms. Not 
only has this conflict done harm for the east Africa region as 
a whole, but it has already damaged the unprecedented goodwill 
and commitment that had been building between the United States 
and Africa during the 6-years of the Clinton Adminiatration. In 
no uncertain terms we must do all we can to bring this truly 
unnecessary conflict to an end.
    I am also a part--I spent many years in Africa, about 7-
years total--I am part of a group of former Peace Corps 
volunteers who served in Ethiopia or Eritrea who are working to 
end the war and bring peace between the two countries. Tomorrow 
we are holding a forum at Howard University with many 
recognized experts and leaders from both countries to explore 
the path to peace. We are hopeful of coming out of this meeting 
with a number of creative ideas and viewpoints which we would 
like to pursue on our upcoming mission to the region, which we 
expect would take place in the very near future.
    Perhaps the time has come for a multitrack approach toward 
seeking diplomatic solutions to this problem. In addition to 
the efforts of the U.S. Government, OAU, the United Nations, 
and other concerned nations, it seemed to us to be a 
constructive role for groups like our former Peace Corps 
delegation, non-governmental organizations and eminent 
personalities in promoting the road to peace.
    I want to emphasize here that while our group is pursuing 
our effort independent of the U.S. Government, including the 
Peace Corps, still we are making every effort to seek our 
government's counsel and also keep them well informed of our 
activities.
    While the Clinton Adminiatration, under the astute 
leadership of Assistant Secretary for African Affairs, Dr. 
Susan Rice, has done much to seek an end to the war, it is 
clearly not the time for a let-up from the U.S. Government. The 
situation is very explosive. Tensions remain extremely high on 
the war front and throughout both countries. Obviously 
fratricidal war cannot be allowed to continue.
    Generally, the U.S. should work closely and in a 
partnership with the organization of African Unity and the U.N. 
to mediate this tragic dispute and to seek lasting solutions. 
The OAU's December report is an excellent framework for 
mediation and contains much that both sides could agree with. 
This report contains an important 11-point proposal that has 
received a strong endorsement from the international community.
    The OAU proposal calls for an immediate cessation of 
hostilities so that a peaceful resolution of the conflict may 
occur through the elimination and demarcation of their common 
border. In connection with the cease-fire, I understand that 
the OAU requires a withdrawal of forces from Badame and other 
areas in Ethiopia to the position held before May 6, 1998. 
While it can be argued and debated as to who did what to start 
the war, I sincerely believe that the best posture for our 
government is to maintain friendly ties with both countries and 
to find ways to provide additional support to the OAU framework 
in order to resolve the immediate border issues and other 
pressing issues which have been spawned as a result of the 
border conflict.
    Once border hostilities are ceased, the U.S. should give 
serious consideration to holding a ``Dayton-style'' conference 
in which President Clinton is fully involved, as Representative 
Campbell has suggested. I fully endorse that. That not only 
paves the way for a peaceful and longstanding settlement of 
this dispute, but also sends a powerful message to other 
African countries and to the American people that Africa truly 
matters. Holding this conference in the U.S. would provide an 
appropriate environment far away from the area of conflict to 
lessen the tension and bluster which now exists in the region. 
It would also allow American political scientists such as Dr. 
Keller, scholars, and political policymakers and others the 
opportunity to play a constructive role in bringing an end to 
the war and set the basis for economic development.
    In the region, the U.S. should be prepared to provide 
financial and technical assistance to the two countries to 
formally define the borders. Beyond that, the U.S. should 
embark on a strategy in cooperation with such nonprofit groups 
as the Corporate Council in Africa and the Constituency for 
Africa to encourage American and other investment in the region 
as a way of ``jump-starting'' economic development. Many 
American companies were in fact prepared to enter into the 
business relationships in the region but have since shied away 
because of the instability. Investor confidence cannot be 
restored so long as the war continues.
    Thank you again for having me as part of this hearing.
    Chairman Royce. Thank you, Mr. Foote.
    [The prepared statement of Mr. Melvin P. Foote appears in 
the appendix.]
    Chairman Royce. Earlier I missed a vote. So I am going to 
take the opportunity to recess for a minute, if I could, so 
that I could catch this vote. Thank you, Mr. Payne. I am going 
to turn the gavel over to you at this point.
    Mr. Adotei, thank you very much.

   STATEMENT OF ADOTEI AKWEI, ADVOCACY DIRECTOR FOR AFRICA, 
                     AMNESTY INTERNATIONAL

    Mr. Akwei. Thank you, Mr. Payne, and thank you, Congressman 
Royce, for allowing Amnesty International to take part in these 
proceedings. Like my colleagues, I am going to be very brief 
because we have been here a while and I think quite a lot of 
what we would have stated has already been said by a number of 
people. Our testimony accompanies our latest report which was 
released last Friday. I would just ask that that report be 
entered into the record.
    Mr. Payne [Presiding.] Without objection.
    Mr. Akwei. What I would like to do basically is just 
restate what is in the short testimony. We looked at the human 
rights condition in both Eritrea and Ethiopia which we feel 
will have to be addressed for long-term resolution and the sort 
of consolidation of democracy in both countries. Then we also 
looked at the human rights violations that resulted as a result 
of the conflict. I would just like to read the conclusions 
again and the recommendations, and hopefully we will have a 
question and answer period.
    Amnesty International is not here to endorse one country or 
to condemn the other as being guilty of more heinous abuses. 
All human rights violations are unacceptable, even those 
committed during a conflict situation. Both Eritrea and 
Ethiopia have used the allegations of human rights abuses 
against their nationals in the other country as justification 
for their own actions in this conflict. However, both countries 
have a responsibility to protect human rights within their 
jurisdictions and to ensure that the protection of human rights 
is a part of any negotiated settlements between the two 
countries. It is imperative that the steps to redress the 
issues of human rights violations by both sides be established, 
as both sides have widely publicized allegations against their 
own citizens. Amnesty International believes that unless this 
is done, the tensions between Ethiopia and Eritrea will 
continue, with the possibility of further conflict and human 
rights violations even if this current border dispute is 
resolved satisfactorily.
    Amnesty International is also aware of the energy and 
effort that has been expended by the United States to try and 
resolve the conflicts peacefully by both the Clinton 
Adminiatration and Members of Congress like yourselves who have 
appealed, implored, and begged both governments to resolve the 
conflict peacefully. You should be commended, but you should 
also be encouraged to do more because the bottom line is that 
we have not succeeded.
    Until we do succeed, reports like ours and hearings like 
this will be, by necessity, focused on wasted potential as 
opposed to documenting positive change in Ethiopia and Eritrea 
or the region in general. It is past time for maximum 
diplomatic and political pressure to be brought to bear on both 
governments. Pressure is needed from foreign governments with 
links to either country, from institutions which both countries 
are a member to, and perhaps, most importantly, from their 
support bases outside of Africa.
    It is essential that the Ethiopian and Eritrean communities 
living here in the United States--who seem to be waging an even 
more vociferous war against each other than are the Asmara and 
Addis Ababa--be reminded of the lives that are being lost, the 
resources that are being wasted, and the suffering of the 
people in the region. Perhaps when there is no more support for 
the fighting and when there are stark costs to pay, both 
diplomatically and politically, both sides or even one side 
will have the courage to say enough is enough and stop 
fighting. In that regard we would make the following 
recommendations:
    We call upon the Clinton Adminiatration and Congress to 
insist that human rights be at the top of any agenda to 
negotiate an end to the settlement. The U.S. Government should 
insist that both governments give full and unrestricted access 
to the International Commission of the Red Cross to visit all 
prisoners of war, not political prisoners. The Administration 
should also publicly call on both governments to publicly 
announce that Ethiopians and Eritreans who were forced to leave 
each country as a result of the conflict will be free to return 
to their former homes and places of work and that an 
independent review panel to address issues of ownership, 
property disputes, will be established and, where appropriate, 
compensation for Ethiopians resident in Eritrea and Eritreans 
resident in Ethiopia at the time will be addressed.
    Finally, we urge and appeal to Congress and Senior Members 
of the Administration to speak out forcefully against all human 
rights violations, be they internment of civilians, 
deportations and expulsions, or indiscriminate bombings. In 
particular, crackdowns against civil society, including the 
independent press which could have acted as a break in the 
slide into war, should be publicly challenged and condemned.
    The United States has close ties with both governments and 
both governments look to it for leadership, but that doesn't 
preclude it from condemning actions and policies that are 
wrong. Both countries are waiting for leadership and looking 
for inspiration to resolve the conflicts. Thank you.
    Mr. Payne. Thank you very much for your testimony.
    [The prepared statement of Mr. Adotei Akwei appears in the 
appendix.]
    Mr. Payne. And now we will hear from Mr. Mel Foote? Oh, you 
did? The entire panel. Well, very good.
    First of all, let me thank each of you for coming here to 
testify. It is good to see you again, Dr. Keller. And, of 
course, the other Members I see more regularly. They are local, 
and so we really appreciate it.
    Let me perhaps ask just some questions and perhaps any one 
can attempt to answer that. As you have already heard and I 
know all of you, especially the two of you that spent time in 
Ethiopia, and of course Amnesty International also, were all 
very, very disappointed, because we looked to Ethiopia and 
Eritrea as the new leaders of Africa with the democracy coming 
into South Africa and now into Nigeria. We were just under the 
opinion that Ethiopia and Eritrea would be further ahead.
    I really don't think that the leadership of either country 
realized the damage, not only for Ethiopia or Eritrea, but as I 
was mentioning earlier when we finally got the Administration 
focused on Africa, we had newspapers writing positive stories. 
We saw elections happening. We saw democracy coming on, but 
both Prime Minister Meles and President Isaias, have done more 
to set Africa policy back in this country than any two people I 
know of in the recent past.
    There was not a positive attitude towards Africa. We found 
two great leaders because, as you know, Africa policy has 
always been on the back burner. The Administration did not care 
about Africa. We could tell by the lack of assistance, the lack 
of attention. Finally, we had Secretaries of State, Presidents, 
the First Lady, Vice Presidents, people going to Africa 
continually.
    Then these two men we talked to as the future of Africa, 
the ``poster men,'' so to speak, the trailblazers, had done 
more to the 700 million Africans. So those of you from each of 
those countries, be sure that you say that, that's what I said, 
Congressman Payne, who has been visiting Ethiopia for 35-years, 
has said. Those two men have set Africa back. It would be all 
right if it was just their own country, but Africa has been set 
back by us pointing to them and having high hopes for them and 
for them turning their backs and destroying everything that has 
been built up. It is wrong. They don't have the right to do it. 
And I really don't understand who they really think they are to 
be able to do that to the continent.
    Let me ask you,--I have heard you give recommendations, but 
what do you think different or what more could have been done, 
since what we have done up to now has not worked? Is there 
any--I know that you made conclusions, but is there any 
conversation that you may have or, second, can any of you try 
to put your finger on the real problem? It is not Badame, that 
is for sure. If it was awarded to one or the other and there 
was no dispute, I am sure they would argue about--well, let me 
just say, let me just ask you, do you know what the real issues 
may be in any of your opinions since you all have been 
associated with both countries?
    Dr. Keller. Well, this is a very delicate question. I am 
going to try to be as diplomatic as I possibly can. In the 
first place, it is complex. The reason that it is complex is 
because this particular war did not need to happen, but it 
happened because of what I consider to be an accident in a 
border zone. That happens in many places. You could go back to 
Sarajevo, way back to the period before the First World War.
    It seems to me this thing has gotten out of hand. We have a 
government in Addis which is predominantly comprised of people 
from the Tigray region. There are other ethnic groups there, 
some of whom feel that government does not represent their 
point of view. There is tension there. But there are some 
Ethiopian nationalists who really feel that this minority 
government sold them out when it agreed to a referendum in 
Eritrea.
    So when a dispute erupts between Meles Zenawi and Isaias 
Afworki, because there is the prospect of getting Eritrea back 
or paying Eritrea back, there is a groundswell of support for 
the war effort. But still underneath it all, there is a great 
deal of tension and it has to do with the internal politics of 
Ethiopia but also it has to do with the personalities.
    Both leaders are very proud men. You and I have been in 
situations where we have seen that. And it is a matter of 
national honor for both sides. It seems to me that Eritrea 
feels that it is justified in building up this massive 
capacity, military capacity, simply because it feels like the 
very survival of the Eritrean nation is at stake. On the other 
hand, there are Ethiopians who feel that Ethiopia must 
recapture its lost pride. I think that is the political 
underpinning of it. But, of course, you can talk about 
economics too.
    Mr. Foote. I just want to add to that. I have always felt 
that there was a culture of war and a culture of tension in the 
region. There is pride in being the victor. In some respects 
this war goes back to Haile Selassie. It goes back to really 
hundreds if not thousands of years.
    Somehow the issue of how you resolve conflict has not been 
dealt with there. It is very easy and very quick to pick up a 
gun and very easy to pick up a stick, very easy to find as your 
first response to a problem.
    I would also add that poverty certainly plays a role in all 
of this and I think the lack of opportunity for individual 
people and groups also exacerbates greatly the potential for 
conflict in the region.
    Mr. Akwei. I think it is ironic that many people were 
referring to the two leaders as role models for democracy for 
Africa in the next millenium because both of them didn't come 
to power from the ballot box. That is something that people 
need to be very conscious of when they look at what was going 
on internally in both countries prior to the conflict. Whether 
it was because of economics, whether it was because of a sense 
of national pride and honor, or whether it was, as my colleague 
Mel just said, because of a culture of violence, all of which 
are debatable.
    But the question of whether there were institutions in both 
countries that could have applied brakes to the outbreak of 
conflict, as happens in other countries--like, for example here 
in the United States, you have dissent, you have questions 
about policy, you have challenges. I guess the axiom is that 
democracies don't go to war or they don't go to war often, 
because there are checks and balances that they need to go 
through. Both countries still haven't developed that. If there 
had been perhaps more of a focus in developing institutions as 
opposed to making allegiances with the individuals, no matter 
how charismatic they were, we might not be in this situation.
    Mr. Payne. That is true. There was an attempt in Ethiopia. 
Dr. Keller was the chair of the elections monitoring group, and 
there were institutions that were developed in Ethiopia, for 
the election. It was a multiparty election. It was relatively 
fair, although there was a group that decided during the latter 
part, near the election date, that they were going to boycott 
the election. There seemed to have been attempts.
    At least in Ethiopia we tried to work on Eritrea on this 
single party state we were sort of having discussions about. 
But Uganda, that has the single party. Mr. Museveni says it is 
no party rather than the single party.
    But I do think there were beginnings that had started, at 
least as I said in Ethiopia. Some of the discussion that we had 
with both of them were certainly about the fact that 
institutions needed to be developed. They were both well read 
persons. I think the Prime Minister had read more books about 
John Kennedy and I had never finished the first one. He had 
three or four of them on his desk. It is not that there was an 
absence of the right stuff, the right material, the right 
direction to go. So that is probably why it was more 
disappointing.
    In the new wave, it wasn't so much the individual, but the 
fact that there is a new group of leaders that have been 
emerging, who are relatively young for African standards. As I 
mentioned, the Kenneth Colanders and the Jomo Kenyatta, and the 
revolutionary people had sort of left the scene or were leaving 
the scene. So these were the younger, and relatively educated. 
The West and Europeans thought was the right thing to do in 
order to have positive relations.
    Actually, the growth in the GDP in Ethiopia had started to 
move to 6, 7-percent annually. Eritrea was moving forward with 
public works projects that rolled from the airport into the 
city that were redone. There were so many visible signs of 
progress that I think that is where the hope was. I could agree 
with you; institutions should build on institutions not 
individuals.
    I yield back to the Chairman. We certainly apologize for 
this unusual kind of event that we have today with votes being 
called so closely together. I am glad that we were able to keep 
it going. Mr. Chairman, I would yield back to you.
    Chairman Royce. Thank you, Mr. Payne. We will turn to Mr. 
Meeks if he wishes at this time to ask some questions.
    Mr. Meeks. No, thank you, Mr. Chairman. Since I missed the 
testimony, I am going to refrain.
    Chairman Royce. Will continue because I have some questions 
that I was going to ask. Mr. Adotei, you mentioned in your 
testimony that 53,000 people of Eritrea origin were deported 
from Ethiopia between June 1998 and today. This is being done 
in the name of national security. The government in Ethiopia 
early on announced that officials of the ruling party in 
Eritrea, or those found spying or mobilizing resources for the 
Eritrea war effort, would be deported. Clearly 53,000 people is 
a large number of people to put into this category. Should I 
take it from your testimony that you believe these deportations 
were illegitimate?
    Mr. Akwei. Yes. The Ethiopian Government has since 
acknowledged that in the process of trying to keep families 
together, spouses, dependents, children, were all shipped out. 
But we certainly feel that the--first of all, the deportation 
process itself violates international law to which the 
Ethiopian Government is a party to. As we mentioned here, the 
International Covenants on Civil and Political Rights basically 
has a very clear procedure under which you appeal to be able to 
derogate from your responsibilities. We feel that did not 
happen. But we also would think that the people who were 
detained did not necessarily meet all of these categories or 
criteria for deportation.
    That is why one of our key recommendations is that all of 
those that were deported be given the right to return home and 
the right to regain their property.
    Chairman Royce. I appreciate your observations. Mr. Foote, 
in your testimony you referred to ethnic friction and 
longstanding vendettas. Is there an ethnic dimension to the 
present conflict, and what do you mean by longstanding 
vendettas?
    Mr. Foote. I think in the case of the war, like in the 
border war, it didn't start with Badame. I think it goes way 
back. I think Dr. Keller touched on it in terms of internal 
politics of Ethiopia which fostered an environment for 
conflict. I am sure the same thing could be said in Eritrea. 
But I think the end of the war, the official war, the 30-year 
war, was not completely ended by everybody. Some people felt 
bad about that and would love to see another conflict in which 
perhaps the Ethiopia regime would be toppled and another regime 
would come in. It is so complex as to be almost amazing.
    I think one has to look beyond the surface to see who 
called for this war. I think that this whole inference of 
trying to resolve conflict and reduce the friction must be a 
permanent part of the discussion. I personally think that 
Ethiopia and Eritrea, for instance, must learn to work 
together. They are dependent on each other economically, 
politically, and otherwise. It is dumb to have two countries, 
quite frankly. We need to be talking about several countries 
regionally coming together economically and politically. The 
rest of the world is grouping up; why is Africa becoming 
smaller and smaller? And so those are my remarks.
    Chairman Royce. I appreciate that. Dr. Keller, we haven't 
seen troops amassed behind trenches and this type of infantry 
assault into machine gun nests and through mine fields since 
the first world war. The type of slaughter that we are seeing 
is divisions just being mowed down like we read about in the 
paper. There are 500,000 men lined up on this border engaged in 
this trench warfare.
    What are the domestic political consequences of this many 
deaths occurring and this type of horrific carnage that we read 
about in the newspapers and which you also reported on in your 
paper?
    Dr. Keller. The domestic consequences are quite apparent, 
but you have to look beyond what the domestic consequences 
might be. It is not as if this battle was taking place in 
Louisiana and you could flip on the TV and see on CNN what 
happened on this front or that front. I don't think that we 
will see the consequence, the domestic, the true impact of it 
until this war goes on longer. I am afraid that it seems to me 
that this war will go on longer.
    The kind of tactics that are being used now are the ones 
which were traditionally used, and it is just that the two 
sides have not been able to gear up in a high-tech sense fast 
enough to begin to use all of these other weapons that they 
have. That is what I am more concerned with. If this war spills 
over, and arms that were brought in for this conflict get to 
central Africa or southern Africa, we could really be in a fix. 
I am very concerned about that.
    I would just like to say one quick thing about the ethnic 
dimension. In Ethiopia in 1995, Ethiopia after this new 
government came in created these ethically based states. Many 
people objected to that. They said that compromised Ethiopian 
national unity. But the government was committed to working 
with it. But what the government put in place were elements of 
procedural democracy rather than a democracy based upon the 
legitimacy of the strategy that it had chosen.
    This continues to be a problem. You have elections that are 
ostensibly free and fair, but there are so many people and 
groups that are left out of these elections until the tensions 
continue. And that is feeding the sort of arms buildup in 
Somalia with opposition groups in Kenya, in Sudan. We are yet 
to really see the true dimensions, and that is why we need to 
try to urgently try to stop the conflict right now and begin to 
work on peace-building and peacemaking.
    Chairman Royce. Dr. Keller, I thank you for testimony, and 
Mr. Foote and Mr. Adotei. We have a question from Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. I was trying to find 
out, I didn't want to be repetitive, but I know that we had 
asked Dr. Rice when she testified and she was really perplexed 
as to what was the cause of the conflict. In other words, to 
get a diplomatic resolution, generally you need to know what is 
the cause of the conflict. I have heard some say it is 
stubbornness, I have heard some say that it is trying to prove 
that one's army is stronger than the other. One wants access to 
water, et cetera.
    Can either one of you give us your opinion what is at the 
heart of the conflict so that we can try to figure out what we 
are trying to resolve here?
    Mr. Foote. My view is that the cultural war is one major 
factor. These are real proud people. When you look at the 
people of the world and the tougher folks and the ones who are 
really, really on top of their game, you find some of the 
sharpest people in the world in the Horn of Africa. I find them 
very resilient but very, very proud. I was saying I wish that 
African-Americans would have a certain sense of that pride. But 
it almost goes overboard to a certain extent that this creates 
a negative: When it comes down to a fight, I am going to fight 
you to the finish; I don't care whether it is over a popsicle 
or over a gold mine. We are going to fight. That is one area 
that has got to be dealt with.
    I think also this overall poverty in the region plays a 
problem because you have got lots of people out there. 
Unfortunately, a lot of people who are dying in the war are 
peasants from rural areas who have very little going for them 
anyway economically, so it is almost as if they are expendable 
or they are being perceived as expendable by these governments. 
I think the culture of war and poverty are major factors 
exacerbating this problem.
    Dr. Keller. I would like the Congress, this Committee, to 
really think about Ethiopian politics in sort of a nuanced way. 
You have a government headed up by Meles Zenawi from the EPRDF. 
He is trying to pursue a policy or sets of policies which other 
people don't agree with. There is no way for them to express 
themselves except in bellicose language and whatnot. So you 
have tensions that develop as a consequence of that.
    I have on many occasions in Addis since 1991 heard people 
refer to the EPRDF as being a puppet of Isaias Afworki. And so 
in a situation like that, there is a lot of warlike tendencies 
that are in a society to begin with. Then if you have a 
precipitant incident like the one at Badame, you could see how 
this thing could quickly get out of hand.
    What I have been amazed at is the level of buildup, not 
only in terms of military personnel but in terms of the amount 
of money being spent on this conflict. I am really afraid of 
this. I am afraid of it for Ethiopia and Eritrea, but afraid of 
it also for Africa.
    Mr. Akwei. I would just like to say that without offering a 
definitive answer, I don't think that you will get one, I think 
there are three key elements that are important in trying to 
solve the problem, in trying to solve the conflict, and that is 
pride, trust, and respect. My colleagues have already referred 
to the fact that the region has an enormous heritage and a 
great pride in itself. That is why I think the recommendations 
for high-level interventions by the President or a Dayton-type 
conference or a Rambouillet-type conference are extremely 
appropriate. If that is what it is going to take, that is what 
we need to get.
    At the same time, respect for the opposing side, for the 
country on the other side of the border. Eritrea is going to 
exist. The Ethiopians, who are not happy with it, must learn to 
live with it and that means respect for it, the Eritrean 
existence, just as the Eritreans must learn to respect that 
Ethiopia has its own legitimate interests and its sense of 
sovereignty over the areas that are being fought over.
    The final thing I think will be trust. Any kind of 
agreement is going to have to get the buy-in not only of the 
leadership and the military but of the people on both sides of 
the border who have been fed massive amounts of information, 
falsely accusing the other of being the worst demons in the 
world. Until you actually get that, get to the root of that--
and I think Congressman Royce was touching on that. It may not 
be hate radio yet, but it is very bad.
    When we were there, there was an absolute fear and terror 
of the opposing side. That is going to take years to correct. 
So there is going to have to be some kind of mechanism that 
ensures trust. That is where you get into the whole issue of 
human rights. How do you make sure that people are accountable 
for what they did; how do you establish an accurate record of 
what they did; and how do you build from there? Those are the 
elements that should be part of any U.S. policy.
    Chairman Royce. I wonder what the people of both these 
nations would think of their respective governments if we were 
broadcasting all of the information from both sides into the 
people and they had the full information. What would the people 
of Ethiopia and Eritrea think of their respective governments 
not resolving this conflict, but instead wasting these 
resources that are so necessary for health and education and 
infrastructure on a military buildup which is going to cost, 
another 100,000 lives?
    I know that you had something to close on, Mr. Foote, and I 
believe Congressman Payne had one last question. So we will go 
to you, and then Congressman Payne will ask his question.
    Mr. Foote. I just wanted to add that the Ethiopians and the 
Eritreans who are in the United States, who are outside of the 
region, have a unique opportunity to also play a role in 
fostering peace for their own countries back home and also help 
mobilize us over here. I find that the same friction over there 
seems to permeate among the Ethiopians and Eritreans who are 
here. They also need to be challenged to be more constructive 
in helping to bring about a peaceful----
    Chairman Royce. I think that is a fair criticism. I will 
say that I have been approached by both Ethiopians and 
Eritreans who have decried their respective governments for 
doing this. I think that it can be observed inside both 
communities here in America that they wish this had never 
happened, and that they fault their respective leaders for not 
being able to avoid this conflict. That is based upon 
conversations that I have had both back in my district and out 
here with quite a few people. But, Mr. Payne----
    Mr. Payne. Just the involvement by both the leaders in 
Somalia is really what concerns me a great deal. I am made to 
understand that they have picked sides. If these newly acquired 
weapons get into Somalia, with the lack of a government in 
Somalia already, it certainly is going to create more of a 
problem.
    I do have a question about Sudan, which once again Sudan 
being involved in the north of Uganda with the Lords Resistance 
Movement, Uganda being allied with Rwanda; the question even 
moving over into the other side of that conflict with Angola 
and Namibia and Zimbabwe, Urundi indirectly, and Zambia, also. 
These connections, it becomes almost a world war in Africa. 
Could any of you explain to me why both sides have sort of gone 
to Sudan for better relations?
    Dr. Keller. My answer would have to do with the fact that 
when you are fighting a war, Mengistu did it when he was 
fighting Aideed. If he was having internal problems and having 
border problems, that meant that he had more fronts than he 
could adequatly cover. It seems to me that Sudan would like to 
shore up its borders by making peace with Ethiopia and Eritrea 
so that rebels would not be threatening Sudan from those 
regions. It makes perfect sense to Bashir. I would think that 
is only temporary. I would think also that it is probably not 
very enforceable. I think that the SPLA is stronger than it has 
been in years and that conflict will continue. I guess that we 
should be having a hearing on that at some point because that 
is really a tragedy.
    Mr. Payne. Thank you very much.
    Chairman Royce. Again, we are going to thank our witnesses 
and the Members of this panel. We are going to adjourn at this 
time. Thanks for coming all of this way.
    [Whereupon, at 4:21 p.m., the Subcommittee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                              May 25, 1999


=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T0136.001
    
    [GRAPHIC] [TIFF OMITTED] T0136.002
    
    [GRAPHIC] [TIFF OMITTED] T0136.008
    
    [GRAPHIC] [TIFF OMITTED] T0136.009
    
    [GRAPHIC] [TIFF OMITTED] T0136.012
    
    [GRAPHIC] [TIFF OMITTED] T0136.013
    
    [GRAPHIC] [TIFF OMITTED] T0136.014
    
    [GRAPHIC] [TIFF OMITTED] T0136.015
    
    [GRAPHIC] [TIFF OMITTED] T0136.003
    
    [GRAPHIC] [TIFF OMITTED] T0136.004
    
    [GRAPHIC] [TIFF OMITTED] T0136.005
    
    [GRAPHIC] [TIFF OMITTED] T0136.006
    
    [GRAPHIC] [TIFF OMITTED] T0136.007
    
    [GRAPHIC] [TIFF OMITTED] T0136.016
    
    [GRAPHIC] [TIFF OMITTED] T0136.017
    
    [GRAPHIC] [TIFF OMITTED] T0136.018
    
    [GRAPHIC] [TIFF OMITTED] T0136.019
    
    [GRAPHIC] [TIFF OMITTED] T0136.020
    
    [GRAPHIC] [TIFF OMITTED] T0136.021
    
    [GRAPHIC] [TIFF OMITTED] T0136.022
    
    [GRAPHIC] [TIFF OMITTED] T0136.023
    
    [GRAPHIC] [TIFF OMITTED] T0136.024
    
    [GRAPHIC] [TIFF OMITTED] T0136.025
    
    [GRAPHIC] [TIFF OMITTED] T0136.026
    
    [GRAPHIC] [TIFF OMITTED] T0136.027
    
    [GRAPHIC] [TIFF OMITTED] T0136.028
    
    [GRAPHIC] [TIFF OMITTED] T0136.029
    
    [GRAPHIC] [TIFF OMITTED] T0136.030
    
    [GRAPHIC] [TIFF OMITTED] T0136.031
    
    [GRAPHIC] [TIFF OMITTED] T0136.032
    
    [GRAPHIC] [TIFF OMITTED] T0136.033
    
    [GRAPHIC] [TIFF OMITTED] T0136.034
    
    [GRAPHIC] [TIFF OMITTED] T0136.035
    
    [GRAPHIC] [TIFF OMITTED] T0136.010
    
    [GRAPHIC] [TIFF OMITTED] T0136.011
    

</pre></body></html>
